No. 20-1009
IN THE

~upreme QCourt of tbe Wniteb ~tate£)
DAVID SHINN, ET AL.,

Petitioners,
V.

DAVID MARTINEZ RAMIREZ AND BARRY LEE JONES,

Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Brief of
Former State Supreme Court Justices and Former Federal Judges as Amici Curiae
in Support of Respondents in Shinn v. Ramirez, No. 20-1009, complies with the word
limitations, as it contains 7,526 words.
I declare under penalty of perjury that the foregoing isltr e and correct.

/

Date: September 20, 2021

/

I

